Supreme Court, U.S.
FILED

WAIVER

SEP 0 1 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20 -

Abdul-Aziz

State of New Jersey
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date,

August 31, 2021

(Type or print) Name

Michele C. Buckley
0 Mr.

Firm

0 Mrs.

12] Miss

Union County Prosecutor's Office

Address

32 Rahway Avenue

City & State
Phone

❑ Ms.

Elizabeth, New Jersey

908-527-4562

Zip
Email

07202

mbuckley@ucnj.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

UNION COUNTY PROSECUTOR'S OFFICE
ANDREW K. RUOTOLO JR. JUSTICE CENTER
32 RAHWAY AVENUE
ELIZABETH, NEW JERSEY 07202-2155
(908) 527-4500 FAX: (908) 289-1267
UCPO@ucnj.org

WILLIAM A. DANIEL

JAMES 0. TANSEY

Prosecutor of Union County

First Assistant Prosecutor

DOREEN A. YANIK
Deputy First Assistant Prosecutor

August 31, 2021

Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street N.E.
Washington, DC 20543-001
Re:

Abdul-Aziz v. State of New Jersey
No.
N.J. Appellate Division Docket No. A-4795-17T3

Dear Mr. Harris:
The State has received a copy of Petitioner's Petition for a Writ of Certiorari. Although the matter
has not been docketed at this time, please find Respondent's Waiver to File a Response unless one is
requested by the Court. Also enclosed is a certificate of service.
Very truly yours,
WILLIAM A. DANIEL
P osecutor of Union County

By: MICHELE C. BUCKLEY
Special Deputy Attorney General/
Assistant Prosecutor
MCB/CL
c Abdul-Aziz, m se
SBI # 690978E
New Jersey State Prison,
P.O. Box 861
Trenton, New Jersey 08625-0861
it
01ECC777=

No.
N.J. Appellate Division Docket No. A-4795-17T3
IN THE
SUPREME COURT OF THE UNITED STATES
August 31, 2021

ABDUL-AZIZ, Petitioner
v.
STATE OF NEW JERSEY, Respondent

PROOF OF SERVICE
I, Michele C. Buckley, do swear or declare that on this date,
August 31, 2021, as required by Supreme Court Rule 29, I have served
the enclosed WAIVER on each party to the above proceeding or that
party's counsel, and on every other person required to be served by
depositing an envelope containing the above document in the United
States mail properly addressed to each of them and with first-class
postage prepaid.
The names and addresses of those served are as follows:
Abdul-Aziz, pro se, SBI# 690978E, New Jersey State Prison, P.O. Box
861, Trenton, N.J. 08625-0861.

r, • -4.0.0 ' ....* r , ...- ...---,

SEP 10 2071
OFFICE OF THE CLERK
SUPREME COURT, U.S

I declare under penalty of perjury that the foregoing is true
and correct.

ICHELE C. BUCKLEY
pecial Deputy Attorney Gene al
Assistant Prosecutor
Attorney for Respondent
The State of New Jersey

